National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                                March 10, 2008

TO:                Director, Glenn Research Center

FROM:              Assistant Inspector General for Auditing

SUBJECT:           Final Memorandum on Glenn Research Center’s Land-based Mobile
                   Communication System (Report No. IG-08-012; Assignment
                   No. S-08-016-00)


During the Office of Inspector General (OIG) review of Glenn Research Center’s
emergency response system, we identified an issue that, because of its significance,
warranted management’s immediate attention. That issue concerned Glenn’s land-based
mobile communication system and the continued use of certain communication
bandwidths in violation of National Telecommunications and Information Administration
(NTIA) requirements. (See Enclosure 1 for details on the review’s scope and
methodology.)

Background
NTIA Manual Part 4.3.9 1(a) and (b) required that, by December 31, 2007, Federal
agencies transition from using wideband channels to using 12.5-kilohertz narrowband
channels for land-based mobile communication systems. 1 This requirement implemented
the “Land Mobile Spectrum Efficiency Plan,” October 1993, which was mandated by the
National Telecommunications Authorization Act of 1992, in an effort to reduce the
probability of interference resulting from the “overcrowding” of certain bandwidths.

In a January 16, 2001, memorandum (see Enclosure 2), NASA provided the Frequency
Assignment Subcommittee, Department of Commerce, 2 its plan for transitioning to the
12.5-kilohertz narrowband channels. The memorandum stated that NASA organizations
would begin transitioning to the narrowband channels no later than October 1, 2004, and
that the transition would be completed by December 31, 2007.




1
    Land-based mobile communication systems include handheld radios, vehicle-mounted radios, desk-based
    systems, base stations, repeaters, and other miscellaneous hardware.
2
    The Frequency Assignment Subcommittee falls under NTIA’s Interdepartment Radio Advisory
    Committee; NTIA is a Department of Commerce bureau.
                                                                                                             2



Glenn Not Compliant with NTIA Requirements
Glenn did not meet the December 31, 2007, deadline for transitioning to the
12.5-kilohertz narrowband channels nor did it request a waiver in accordance with NTIA
Manual Part 4.3.9 1(b). According to personnel from Glenn’s land-based mobile
communication user groups, the transition status as of January 14, 2008, was as follows:

       •   Facility Operations—waiting on installation of its new radio base stations, expect
           delivery of new radios by January 18, 2008.

       •   Logistics—transition complete.

       •   Safety—waiting on installation of its new radio base station, received partial
           delivery of new radios on January 2, 2008.

       •   Security—transition complete. 3

       •   Test Facilities—transition effort underway, completion date unknown.

Because the transition was not completed by December 31, 2007, Glenn continued to use
the wideband channels in support of mission operations and other activities, such as
emergency response. 4 We understand the need to use the wideband channels to maintain
operations and ensure facility safety and security; however, until such time that Glenn
completes its transition to the 12.5-kilohertz narrowband channels, or is granted a waiver,
Glenn (and NASA) will remain in violation of the NTIA requirement.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Management provided comments on our recommendations (see Enclosure 3) in response
to our January 16, 2008, memorandum notifying the Glenn Director of this issue.

Recommendation 1. We recommended that the Director, Glenn Research Center,
instruct the Glenn Radio Frequency Spectrum Manager to initiate a waiver through
NTIA’s Interdepartment Radio Advisory Committee, Frequency Assignment
Subcommittee for continued use of wideband channels for land-based mobile
communications.

       Management’s Response. The Director nonconcurred, stating that Glenn did not
       intend to pursue a waiver. He stated that the Glenn Radio Frequency Spectrum

3
    We were notified that compatibility problems might exist between the Safety and Security radios, which
    could potentially impact the emergency response system. We will address the compatibility problems as
    part of our overall review of Glenn’s emergency response system.
4
    Although Logistics and Security have completed their transition efforts, they must continue to use the
    wideband channels to communicate with the user groups who have not.
                                                                                          3



   Manager had communicated with NTIA officials regarding Glenn’s need for a waiver
   or extension and that the NTIA officials stated that they would not accept waivers of
   the wideband requirement. The NTIA officials also stated that because of a United
   States/Canadian treaty concerning the wideband channel used by Glenn, any waiver
   would have to be coordinated with Canada and that they were unwilling to do so.

   Evaluation of Management’s Response. Although our intent was that a formal
   written request for a waiver be submitted in accordance with NTIA Manual Part 4.3.9
   1(b), we accept the Director’s response that a verbal waiver request was denied by the
   NTIA. Therefore, the recommendation is resolved and closed.

Recommendation 2. We recommended that the Director, Glenn Research Center,
appoint an individual or committee to oversee the transition from the wideband channels
to the 12.5-kilohertz narrowband channels to ensure that the transition is adequately
coordinated between the Glenn Radio Frequency Spectrum Manager and the land-based
mobile communication user groups and is completed in a timely manner.

   Management’s Response. The Director concurred, stating that the Glenn radio
   project manager would oversee the transition. He added that the transition should be
   completed no later than March 1, 2008.

   Evaluation of Management’s Response. Management’s comments are responsive.
   We verified that on February 14, 2008, Glenn deactivated the wideband
   communication system and began using the 12.5-kilohertz narrowband channels for
   all of its land-based mobile communications. In addition, the Director provided
   comments on February 25 confirming the deactivation (see Enclosure 4). The
   recommendation is resolved and closed.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Ms. Carol Gorman, Space Operations and
Exploration Director, at 202-358-2562.


   signed
Evelyn R. Klemstine

4 Enclosures

cc:
Associate Administrator, Institutions and Management
Chief Information Officer
Chief, Safety and Mission Assurance
General Counsel
                            Scope and Methodology
We collected, reviewed, and analyzed guidance and documents relating to land-based
mobile communication systems. Specifically, we evaluated NTIA requirements, the
National Telecommunications Authorization Act of 1992, and the Land Mobile Spectrum
Efficiency Plan, October 1993. We also reviewed NASA’s plans for transitioning to the
use of 12.5 kHz narrowband communications channels and NASA’s radio frequency
authorizations. We interviewed Glenn officials including, the Glenn Radio Frequency
Spectrum Manager, the lead Communications Engineer, and personnel from each of
Glenn’s land-based mobile communication user groups to obtain an overview of the
Glenn communications system and to determine the status of each of the user groups in
transitioning to use of the 12.5 kHz narrowband channels.

We performed this review from January through March 2008. We did not use computer-
processed data to perform this review.

Prior Coverage. During the last 5 years, the Government Accountability Office (GAO)
issued one report of particular relevance to the subject of this memorandum: “Better
Knowledge Needed to Take Advantage of Technologies that May Improve Spectrum
Efficiency” (GAO-04-666; May 2004). Unrestricted reports can be accessed over the
Internet at http://www.gao.gov (GAO).




                                                                          Enclosure 1
                                                                          Page 1 of 1
NASA Memorandum to Frequency Assignment Subcommittee,
            Department of Commerce




                                               Enclosure 2
                                               Page 1 of 2
Enclosure 2
Page 2 of 2
Management’s Comments




                        Enclosure 3
                        Page 1 of 3
Enclosure 3
Page 2 of 3
Enclosure 3
Page 3 of 3
Additional Management Comments




                                 Enclosure 4
                                 Page 1 of 1
